No.

IN THE
SUPREME COURT OF THE UNITED STATES

Matthew Jones

-PETITIONER

Vs.
Dr. Jose Capiro-RESPONDENT

PROOF OF SERVICE

I, Matthew Jones, do swear or declare on this date, October 2nd , 2020, as
required by the Supreme Court Rule 291 have served and enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing
an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by deliveiy to
a third-party commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
1. Dr. Jose Capiro via his Attorneys Kelly Rowe and Dana Monzo at White
and
Williams, LLP, 600 N. King St, Suite 800, Wilmington, DE 19801
2. Attorney General of Delaware, Department of Justice, 820 N. French St.,
Wilmington, DE 19801
3. Solicitor General of the United States: Room 5614, Department of Justice,
950 Pennsylvania Ave., N.W., Washington, DC 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 2nd, 2020.

Matthew Jones
11366 Sussex Highway
Greenwood, Delaware 19950
AzraelLinusSmith@pmai1 com
(302) 349-5251

